No.
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 6th day of October 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,920
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct. Executed
on October 6, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 6, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST:
USA V. DZHOKHAR TSARNAEV
JUDY CLARKE
CLARKE, RICE APC
1010 2ND AVE.
SUITE 1800
SAN DIEGO, CA 92101
MIA ALYSSA EISNER-GRYNBERG
FEDERAL DEFENDERS OFFICE
1 PIERREPONT PLAZA
16TH FLR.
BROOKLYN, NY 11201
718-330-1257
CLIFFORD GARDNER
1448 SAN PABLO AVE.
BERKELEY, CA 94702
DANIEL HABIB
FEDERAL DEFENDERS OFFICE
52 DUANE STREET
10TH FLR.
NEW YORK, NY 10007
212-417-8769
DANIEL_HABIB@FD.ORG
GAIL K. JOHNSON
JOHNSON & KLEIN PLLC
1470 WALNUT STREET
STE. 101
BOULDER, CO 80302
303-444-1885
DAVID PATTON
FEDERAL DEFENDERS OFFICE
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
212-417-8738
DZHOKHAR A. TSARNAEV
USP FLORENCE ADMAX
PO BOX 8500
FLORENCE, CO 81226-8500

DEIRDRE VON DORNUM
FEDERAL DEFENDERS OFFICE
1 PIERREPONT PLAZA
16TH FLOOR
BROOKLYN, NY 11201
718-330-1210
DEIRDRE_VONDORNUM@FD.ORG

